TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Accuracy of Tax Returns, the
                      Quality Assurance Processes, and
                   Security of Taxpayer Information Remain
                     Problems for the Volunteer Program



                                         August 26, 2011

                              Reference Number: 2011-40-094




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Redaction Legend: 3(d) = Identifying Information



Phone Number | 202-622-6500
Email Address | TIGTACommunications@tigta.treas.gov
Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


ACCURACY OF TAX RETURNS, THE                         not be providing reliable results. Unlike when
QUALITY ASSURANCE PROCESSES,                         auditors pose as a taxpayer and visit a volunteer
AND SECURITY OF TAXPAYER                             tax preparation site to have a tax return
INFORMATION REMAIN PROBLEMS FOR                      prepared, during the Quality Statistical Sample
                                                     Reviews, volunteers are aware that IRS staff are
THE VOLUNTEER PROGRAM
                                                     onsite to review the tax returns they are
                                                     preparing.
Highlights                                           Current steps and processes do not ensure the
                                                     integrity of volunteers, even though the
Final Report issued on August 26, 2011               volunteers have access to taxpayers’ Personally
                                                     Identifiable Information, such as Social Security
Highlights of Reference Number: 2011-40-094          Numbers, driver licenses, and home addresses.
to the Internal Revenue Service Commissioner         The IRS does have a process to help ensure
for the Wage and Investment Division.                willful acts of fraud occurring at Volunteer
                                                     Program sites can be reported, but
IMPACT ON TAXPAYERS                                  improvements are needed.
The Volunteer Program plays an important role        WHAT TIGTA RECOMMENDED
in achieving the Internal Revenue Service’s
(IRS) goal of improving taxpayer service and         TIGTA recommended and the Commissioner,
facilitating participation in the tax system. It     Wage and Investment Division, agreed to:
provides no-cost Federal tax return preparation      1) evaluate the Quality Statistical Sample
and electronic filing directed toward underserved    Review process to ensure it is the best use of
segments of individual taxpayers, including          resources; 2) include anonymous shopping visits
low-income to moderate-income, elderly,              as part of the quality review process; 3) improve
disabled, and limited-English-proficient             controls over Volunteer Standards of Conduct
taxpayers. However, preparing accurate tax           (Form 13615); 4) develop a process to ensure
returns remains a challenge for the Volunteer        all volunteers are following the guidance
Program.                                             focusing on the integrity of the Volunteer
                                                     Program and the security of taxpayer
WHY TIGTA DID THE AUDIT                              information; 5) revise the Intake/Interview and
This was a follow-up audit to prior TIGTA            Quality Review Sheet (Form 13614-C) and the
reviews to determine whether taxpayers visiting      1-877-330-1205 telephone line scripts to advise
IRS Volunteer Program sites receive quality          taxpayers on how to obtain refund information;
service, including accurate tax returns.             6) review the IRS fraud hotline procedures to
                                                     determine best practices; and 7) ensure
WHAT TIGTA FOUND                                     telephone and email contacts are effectively
                                                     controlled.
The accuracy rates for tax returns prepared at
Volunteer Program sites decreased sharply from
the 2010 Filing Season. Of the 36 tax returns
prepared for TIGTA auditors, only
14 (39 percent) were prepared correctly. Tax
returns were prepared incorrectly because
volunteers did not follow all guidelines. For
example, volunteers did not always use the
intake sheets correctly. For three (14 percent)
of the 22 incorrectly prepared tax returns,
volunteers knowingly modified the facts the
auditors presented.
The IRS has implemented an extensive quality
review process, but it has limitations and may
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 August 26, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Accuracy of Tax Returns, the Quality Assurance
                                Processes, and Security of Taxpayer Information Remain Problems for
                                the Volunteer Program (Audit # 201140006)

 This report presents the results of our review to determine whether taxpayers visiting Internal
 Revenue Service Volunteer Program1 sites receive quality service, including accurate tax returns.
 This was a follow-up audit to prior Treasury Inspector General for Tax Administration reviews2
 and is part of our Fiscal Year 2011 Annual Audit Plan. The audit addresses the major
 management challenge of Providing Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included in Appendix X.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.




 1
     Includes the Volunteer Income Tax Assistance and Tax Counseling for the Elderly Programs.
 2
     See Appendix IX for a list of these prior reports.
                                    Accuracy of Tax Returns, the Quality Assurance
                                    Processes, and Security of Taxpayer Information
                                      Remain Problems for the Volunteer Program




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          The Accuracy of Tax Returns Remains a Challenge for
          the Volunteer Program .................................................................................. Page 6
                     Recommendations 1 and 2: .............................................. Page 15

          Current Procedures Need to Be Strengthened to Ensure
          the Integrity of the Volunteers and the Security of
          Taxpayer Information ................................................................................... Page 15
                     Recommendations 3 and 4: .............................................. Page 21

                     Recommendations 5 through 7:......................................... Page 22


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 23
          Appendix II – Major Contributors to This Report ........................................ Page 24
          Appendix III – Report Distribution List ....................................................... Page 25
          Appendix IV – Cities and States Visited to Have Tax Returns
          Prepared ........................................................................................................ Page 26
          Appendix V – Accuracy Rate by Tax Topic ................................................. Page 27
          Appendix VI – Intake/Interview and Quality Review Sheet ........................ Page 28
          Appendix VII – Volunteer Agreement
          Standards of Conduct – VITA/TCE Programs ............................................. Page 31
          Appendix VIII – General Characteristics of Tax Returns Prepared
          by the Volunteer Program During Calendar Year 2011 ............................... Page 32
          Appendix IX – Treasury Inspector General for Tax Administration
          Audit Reports on the Volunteer Tax Return Preparation Program ............... Page 34
          Appendix X – Management’s Response to the Draft Report ....................... Page 35
       Accuracy of Tax Returns, the Quality Assurance
       Processes, and Security of Taxpayer Information
         Remain Problems for the Volunteer Program




               Abbreviations

IRS      Internal Revenue Service
QSS      Quality Statistical Sample
SPEC     Stakeholder Partnerships, Education, and Communication
TCE      Tax Counseling for the Elderly
VITA     Volunteer Income Tax Assistance
                             Accuracy of Tax Returns, the Quality Assurance
                             Processes, and Security of Taxpayer Information
                               Remain Problems for the Volunteer Program




                                           Background

The Volunteer Program plays an important role in achieving the Internal Revenue Service’s
(IRS) goal of improving taxpayer service and facilitating participation in the tax system. It
provides no-cost Federal tax return preparation and electronic filing directed toward underserved
segments of individual taxpayers, including low-income to moderate-income, elderly, disabled,
and limited-English-proficient taxpayers. It includes sites operated in partnership with the
military and with various community-based organizations.1 The Volunteer Program is comprised
of the Volunteer Income Tax Assistance (VITA) Program, the
Tax Counseling for the Elderly (TCE) Program, and the                      Volunteers play an
VITA Grant Program.                                                    increasingly important role
                                                                                 in helping the IRS achieve
The VITA Program was originated in 1969 due to enactment of                         its goal of improving
the Tax Reform Act of 19692 and an increased emphasis on                            taxpayer service and
taxpayer education programs. The IRS has placed continual                         facilitating participation
emphasis on expanding the VITA Program through increased                              in the tax system.
recruitment of various religious, social and nonprofit, corporate,
financial, educational, and government organizations;
involvement of the military on a national level; and expansion of
assistance provided to the limited-English-proficient community.
The TCE Program began with the Revenue Act of 19783 that
authorized the IRS to enter into agreements with private or
nongovernmental public nonprofit agencies and organizations to provide training and technical
assistance to volunteers who provide free tax counseling and assistance to elderly individuals in
the preparation of their Federal income tax returns. The law authorizes an appropriation of
special funds, in the form of grants, to provide tax assistance to persons age 60 and older. The
IRS receives the funds as a line item in the budget appropriation. The total funds are distributed
to the sponsors4 for their expenses.
Since Fiscal Year 2009, the IRS has granted funds for the VITA Grant Program. For the
2011 Filing Season, 179 organizations were awarded $12 million in matching grants. The grants
are to be used to increase the capacity to file tax returns electronically and enhance training of
volunteers at VITA sites.



1
  Eight community-based Volunteer Program sites are located in buildings occupied by one or more IRS offices.
2
  Pub. L. No. 91-172, 83 Stat. 487 (codified as amended in scattered sections of 26 U.S.C. and 42 U.S.C.).
3
  Pub. L. No. 95-600, 92 Stat. 2810.
4
  A sponsor would be an entity similar to the AARP (formerly the American Association of Retired Persons).
                                                                                                         Page 1
                              Accuracy of Tax Returns, the Quality Assurance
                              Processes, and Security of Taxpayer Information
                                Remain Problems for the Volunteer Program



For Fiscal Year 2010, 87,602 volunteers staffed a total of 12,326 VITA and TCE sites.
Volunteers prepared approximately 1.8 million individual income tax returns at VITA sites and
approximately 1.3 million at TCE sites. Figure 1 provides key production data for Fiscal Years
2008 through 2010.
                             Figure 1: Key VITA/TCE Production Data
                                    for Fiscal Years 2008–2010
                                     Fiscal Year         Fiscal Year         Fiscal Year       Percentage
                                        2008                2009                2010            Change*
      VITA
      Paper                              247,828             145,828             153,998           5.60%
      Electronically Filed             1,339,023           1,608,605           1,631,617           1.43%
      Total VITA Tax Returns           1,586,851           1,754,433           1,785,615           1.78%
      Total VITA Sites                     4,991               6,468               5,845          -9.63%
      Total VITA Volunteers               46,610              47,964              52,296           9.03%
      TCE
      Paper                              326,555             111,502              88,385         -20.73%
      Electronically Filed             1,563,879           1,165,843           1,196,898           2.66%
      Total TCE Tax Returns            1,890,434           1,277,345          1,285,283            0.62%
      Number of Sites                      6,849               5,692               6,481         13.86%
      Number of Volunteers                32,233              34,689              35,306           1.78%
      TOTALS
      Tax Returns5                     3,477,285           3,031,778           3,070,898           1.29%
      Sites                               11,840              12,160              12,326           1.37%
      Volunteers                          78,843              82,653              87,602           5.99%
     Source: IRS management information system containing information for Fiscal Years 2008 through 2010.
     * = Percentage change is calculated using the change from Fiscal Year 2009 to 2010.

This audit included an assessment of tax returns prepared at VITA sites and TCE/AARP
sponsored sites. Figure 2 provides a breakdown of the Volunteer Program and the percentage of
tax returns prepared during the 2010 Filing Season.




5
 This does not include tax returns prepared in a volunteer site without the program type (VITA, TCE, or Military)
being identified.

                                                                                                           Page 2
                          Accuracy of Tax Returns, the Quality Assurance
                          Processes, and Security of Taxpayer Information
                            Remain Problems for the Volunteer Program



                 Figure 2: Percentage of Tax Returns Prepared at the
                   Volunteer Program Sites During Fiscal Year 2010




               Source: IRS Stakeholder Partnerships, Education, and Communication (SPEC) function.

The IRS SPEC function is responsible for providing oversight for the Volunteer Program, which
includes determining policies and procedures, developing products and training material, and
monitoring and managing Volunteer Program activity. The SPEC function’s concept of
operations includes looking for opportunities to assist third parties to help taxpayers understand
and meet their tax obligations by promoting collaboration among tax practitioners, tax preparers,
and community-based partners to support the Volunteer Program.

Tax scenarios used by auditors reflected tax topics volunteers were trained to
handle for taxpayers seeking assistance from the Volunteer Program
Three scenarios were designed for auditors to use as they posed as taxpayers having tax returns
prepared by volunteers (referred to as shopping). The scenarios were developed to use
characteristics of taxpayers who visit Volunteer Program sites to have a tax return prepared and
tax law topics that assessed the volunteers’ use of the tools the SPEC function created to ensure
that accurate tax returns are prepared. The scenarios included only tax topics for which the
volunteers had been trained.
In addition, although most tax returns prepared by volunteers are prepared for taxpayers who file
Single with no dependents, auditors used two scenarios that included tax topics dealing with
dependents and credits. About three quarters (2.3 of 3.1 million) of the taxpayers who use the
Volunteer Program tax preparation assistance receive tax refunds. Three credits, the Earned
Income Tax Credit, the Child Tax Credit, and the Additional Child Tax Credit, contributed to

                                                                                                     Page 3
                                Accuracy of Tax Returns, the Quality Assurance
                                Processes, and Security of Taxpayer Information
                                  Remain Problems for the Volunteer Program



41 percent ($1.6 of $3.9 billion) of the tax refunds issued to taxpayers who had their tax returns
prepared by volunteers in the 2011 Filing Season. These credits generally require that taxpayers
have dependents to claim the credits. Figure 3 shows the amount of refunds generated by Tax
Year 2011 returns prepared by the Volunteer Program.
              Figure 3: Refunds or Balances Due Generated From Tax Returns
                 Filed as of May 9, 2011, Prepared by the Volunteer Program6

              Refund Due/                   Dollar                Tax Return         Percentage of Tax
              Balance Due                   Totals                   Volume             Return Volume

              Refunds Due               $3,924,877,622             2,340,925                76.38%
              Balances Due                $445,195,385               459,933                15.01%
              Breakeven                               $0             263,969                  8.61%

                                                         Dollar
               Credits Claimed                           Totals                  Tax Return Volume

              Earned Income Tax                      $1,001,382,805                     683,926

              Additional Child Tax                     $352,706,061                     306,749
              Child Tax                                $246,336,806                     245,132
              Total                                  $1,600,425,672
             Source: Our analysis of IRS management information system containing all Tax Year 2011
             tax returns filed as of May 9, 2011.

The following are the three scenarios used by auditors during the 2011 Filing Season.
Scenario 1 – The taxpayer was single, had never been married, and lived with his or her sister.
             The taxpayer had 1 child/grandchild, age 8, who lived with the taxpayer in the
             home approximately 3 months during the summer. The child lived with the
             mother/father during the school year, for approximately 9 months. During
             Calendar Year 2010, the taxpayer worked at a school as a teacher’s aide/assistant,
             at a home improvement store, and at a local retail store. Total income reported on
             the 2010 Wage and Tax Statement (Form W-2) was $17,034. The taxpayer
             received a 2010 Interest Income (Form 1099-INT) totaling $7.35. The taxpayer
             spent $350.00 for school supplies and contributed $384.69 toward a Health
             Savings Account.
                   An accurately prepared tax return would result in the taxpayer receiving a refund
                   of $461. The taxpayer’s filing status was Single. The taxpayer could not claim the


6
    See Appendix VIII for tables showing the general characteristics of tax returns prepared by the Volunteer Program.
                                                                                                              Page 4
                         Accuracy of Tax Returns, the Quality Assurance
                         Processes, and Security of Taxpayer Information
                           Remain Problems for the Volunteer Program



              child as a dependent and did not qualify for the Child Tax Credit or Earned Income
              Tax Credit. The taxpayer was eligible for a $400 Making Work Pay Credit.
Scenario 2 – The taxpayer was divorced and lived with his or her 9-year-old child/grandchild.
             The taxpayer received $300 a month for child support and had dependent care
             expenses totaling $1,370. During Calendar Year 2010, the taxpayer was paid
             biweekly, contributed $1,263 to a 401(k) retirement plan, and had wages reported
             on the 2010 Forms W-2 totaling $29,232. The taxpayer also received a
             2010 Form 1099-INT totaling $4.13.
              An accurately prepared tax return would result in the taxpayer receiving a refund
              of $2,827. The filing status was Head of Household. The taxpayer could claim a
              dependency exemption, qualified for a $1,008 Earned Income Tax Credit, a
              $935 Child Tax Credit, a $65 Additional Child Tax Credit, and a $370 Child and
              Dependent Care Credit. The taxpayer also was eligible to claim a $126 Retirement
              Savings Contributions Credit and a $400 Making Work Pay Credit.
Scenario 3 – The taxpayer was single with no dependents and shared an apartment with a friend.
             During Calendar Year 2010, the taxpayer was employed at a home improvement
             center and had a 2010 Form W-2 reporting wages of $18,435. The taxpayer was
             also self-employed and had self-employed income totaling $17,800 and business
             expenses totaling $4,735. The taxpayer had no taxable income in Calendar
             Year 2009.
              An accurately prepared tax return would result in the taxpayer owing $3,267,
              including self-employment taxes. The filing status was Single. The taxpayer was
              eligible for a $400 Making Work Pay Credit. The taxpayer was not subject to the
              estimated tax penalty.
This review was performed at the IRS SPEC function in the Wage and Investment Division in
Atlanta, Georgia, during the period December 2010 through May 2011. In addition, from
February through April 2011, Treasury Inspector General for Tax Administration auditors
performed 36 anonymous visits (called shopping) and had 36 tax returns prepared at
36 judgmentally selected Volunteer Program sites located in 12 States. Three different sites
were selected in each State. Appendix IV provides a list of the 12 States and the specific cities
where the sites were located.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.

                                                                                            Page 5
                                 Accuracy of Tax Returns, the Quality Assurance
                                 Processes, and Security of Taxpayer Information
                                   Remain Problems for the Volunteer Program




                                          Results of Review

The Accuracy of Tax Returns Remains a Challenge for the Volunteer
Program
The accuracy rates for tax returns prepared at Volunteer Program sites decreased sharply from
the 2010 Filing Season. Of the 36 tax returns prepared for our auditors, 14 (39 percent) were
prepared correctly and 22 (61 percent) were prepared incorrectly. The accuracy rate should not
be projected to the entire population of tax returns prepared at the Volunteer Program sites.
Nevertheless, if the 22 incorrect tax returns had been filed: 15 (68 percent) taxpayers would not
have been refunded $3,874 to which they were entitled; 3 (14 percent) taxpayers would not have
owed $9,799 (and would have received improper refunds of $802);7 and 4 (18 percent) taxpayers
would have owed an additional $768 in tax and/or penalties.
Figure 4 shows the accuracy rates of tax returns prepared for our auditors for the 2004 through
2011 Filing Seasons.8 Tax returns were not prepared correctly because volunteers did not obtain
sufficient information to correctly apply the tax law or modified the facts in the scenarios the
auditors presented.
                             Figure 4: Overall Tax Return Accuracy Rates
                                   for the 2004–2011 Filing Seasons




                      Source: Tax returns prepared for our auditors by volunteers during the
                      2004–2011 Filing Seasons.


7
    Instead of what should have been a balance due, 2 taxpayers received a tax refund of $401 each.
8
    See Appendix V for a list of tax topics used in the scenarios and the accuracy rate for each topic.

                                                                                                          Page 6
                           Accuracy of Tax Returns, the Quality Assurance
                           Processes, and Security of Taxpayer Information
                             Remain Problems for the Volunteer Program



In addition, when using Scenario 3, which if prepared correctly would have resulted in the
taxpayer owing taxes, auditors expected the volunteers to educate the taxpayers on the estimated
penalty, explaining that it would not be added to the tax return at this time, but the IRS would
calculate the penalty for the taxpayer and send a bill, if applicable. Volunteer Program
guidelines instruct the volunteer not to calculate or impose the penalty. This did not occur when
preparing any of the 12 small business tax returns. However, only 2 (17 percent) of the 12 tax
returns were counted as having penalty errors because in those 2 instances the volunteers
incorrectly calculated the estimated tax penalty and entered it on the tax returns. Figure 5 shows
the accuracy rate by scenario.
                       Figure 5: Overall Tax Return Accuracy Rates
                                 for the 2011 Filing Season

                                                       Number of Tax
                                                     Returns Prepared           Accuracy
                Tax Scenario Used                    Using the Scenario           Rate
                Scenario 1                                   12                   25%
                Scenario 2                                   12                   50%
                Scenario 3                                   12                   42%
                Total Accuracy                                 36                  39%
               Source: Tax returns prepared for our auditors by volunteers during the
               2011 Filing Season.

Factors influencing the accuracy rate
With the exception of the 2010 Filing Season, the accuracy rate for tax returns prepared in the
Volunteer Program has ranged from 0 to 69 percent. During the 2010 Filing Season, when the
accuracy rate was 90 percent, it became apparent that various factors were influencing the
increase in accuracy rate.
   •   Volunteers had come to recognize the scenarios the auditors were using to have tax
       returns prepared.
   •   In prior years, one of the criteria for site selection was the volume of tax returns prepared
       at the sites and trending of sites previously visited. As such, high volume sites had a
       higher probability of being tested, which the volunteers had also come to recognize.
   •   The IRS was aware of our site visits. Because auditors were doing other tests at the sites
       after they had tax returns prepared, IRS employees were onsite to conduct their own
       review after tax preparation.
Therefore, for the 2011 Filing Season, the scenarios were changed to show multiple sources of
income, from self-employed and private businesses. One scenario resulted in taxes owed instead
of a tax refund. In addition, the criteria for site selection were changed; the volume of tax returns

                                                                                              Page 7
                              Accuracy of Tax Returns, the Quality Assurance
                              Processes, and Security of Taxpayer Information
                                Remain Problems for the Volunteer Program



prepared at the sites was not one of the criteria. This filing season’s site selection was based on
audit resources, proximity of sites to major cities, and geographical location of the auditors. To
expand testing to include sites never visited, we eliminated those sites and most cities visited in
prior audits. Finally, after the first six site visits, the IRS was not told which sites were included
in the testing and IRS employees were not onsite at any time on the day of the visits.

Tax returns were prepared incorrectly because volunteers did not follow all
guidelines
Quality service and accurate tax return preparation start with the volunteers asking taxpayers the
right questions. A tax return is accurate when the tax law is applied correctly and the tax return
is free from error based on the taxpayer’s interview, his or her supporting documentation, and the
completed IRS-approved Intake/Interview and Quality Review Sheet (Form 13614-C).9
During our visits, 33 (92 percent) Forms 13614-C were prepared. However, only 13 (36 percent)
of 36 volunteers ensured Form 13614-C was completed and used to prepare the tax returns. Of
23 (64 percent) tax returns prepared by volunteers who did not appropriately use an intake sheet,
17 (74 percent) of the 23 tax returns were prepared incorrectly. In addition, for the 36 sites
visited:
      •   16 (44 percent) volunteers did not verify identity or address.
      •   20 (56 percent) volunteers did not conduct an interview to verify the accuracy of the
          Form 13614-C.
      •   24 (67 percent) volunteers did not engage in a conversation to help identify other tax law
          issues that may affect the tax return.
      •   35 (97 percent) volunteers did not explain that the taxpayer has the ultimate responsibility
          for the tax return.
The Form 13614-C guides volunteer tax return preparers through taxpayer interviews and allows
them to gather all necessary information to prepare accurate tax returns. The intake and
interview process must include the following at a minimum:
      •   An interview with the taxpayer that includes explaining the tax return preparation process
          and encouraging him or her to ask questions throughout the interview process.
      •   Completion of Form 13614-C or an IRS-approved, partner-developed form asking the
          questions listed on Form 13614-C or similar questions that will provide the same
          information.



9
    See Appendix VI for a copy of Form 13614-C.

                                                                                                Page 8
                         Accuracy of Tax Returns, the Quality Assurance
                         Processes, and Security of Taxpayer Information
                           Remain Problems for the Volunteer Program



   •   Confirmation of the taxpayer’s responses provided on the Form 13614-C (or similar
       form).
   •   Use of probing questions to ensure that complete information is gathered.
   •   Review of all supporting documentation and confirmation with the taxpayer that all
       income was discussed and noted on the Form 13614-C to ensure that it will be included
       on the tax return.
   •   Beginning with the 2010 Filing Season, the IRS mandated that all Volunteer Program
       sites that received grant funding use the Form 13614-C. All other sites may use their
       own intake sheet, but it must be IRS-approved. During the 2010 Filing Season when the
       accuracy rate was 90 percent, only 2 (5 percent) of the 39 tax returns prepared for
       auditors were prepared without the volunteers using the Form 13614-C. During the
       2009 Filing Season review, 22 percent did not use it, and during the 2008 Filing Season
       review, 33 percent of the volunteers did not use the Form 13614-C. The accuracy rates
       were 59 and 69 percent, respectively.
The SPEC function should continue to educate volunteers and employees to reinforce quality
review guidelines.

Tax returns were prepared incorrectly because volunteers modified the facts in
the scenarios the auditors presented
For 3 (14 percent) of the 22 incorrectly prepared tax returns, volunteers knowingly modified the
facts the auditors presented—2 by either removing or reducing the self-employment income and
1 by allowing a dependency exemption for a child who the volunteer knew did not meet the
requirements of a qualifying child. Had these 3 tax returns been filed by actual taxpayers,
modifications of the facts would have resulted in the understatement of balance due taxes for
2 tax returns in the amount of $6,933. One tax return was prepared on paper and reflected
numerous errors, including a math error, which counteracted the benefit of improperly allowing
the dependency exemption. The tax return resulted in a receipt of a net refund that was
understated by $96.
In two instances when Scenario 3 was presented, the volunteers questioned the auditors on
whether the services provided (the self-employment income) were paid by cash or check. When
the auditors responded that they were paid by both, one volunteer reduced the self-employment
income amount by the amount of the cash. However, in the second instance, the volunteer
removed all self-employment income and expenses from the tax return. ***3(d)************
***************************************3(d)**********************************
*********3(d)***************************.
In a third instance when using Scenario 1, the auditor was asked if the child lived with him or
her. The auditor responded that the child lived with the other parent. The volunteer then asked if

                                                                                           Page 9
                                Accuracy of Tax Returns, the Quality Assurance
                                Processes, and Security of Taxpayer Information
                                  Remain Problems for the Volunteer Program



the other parent was going to claim the child, and the auditor stated that he or she was not aware
if the other parent filed a tax return. *******3(d)*************************************
******************************************3(d)*******************************
****************************3(d)***********************************.
The SPEC function took immediate action when notified of the irregularities
We contacted SPEC function officials immediately to share the irregularities identified at the
three Volunteer Program sites. They took immediate action, including:
       •   Deactivating the Electronic Filing Identification Number at sites where incidents
           occurred.
       •   Closing all three sites as of March 31, 2011, and requiring that all three closed sites return
           all IRS property and materials.
       •   Suspending all volunteers from the three affected sites from working in the Volunteer
           Program and placing all organizations and their affiliates on temporary probation pending
           certification that sufficient corrective actions have been taken.
       •   Holding partner conference calls to discuss these incidents along with expectations for
           ethical behavior.
The SPEC function also conducted post-filing season events, including a webinar10 emphasizing
the importance of volunteer ethics and integrity. In addition, the SPEC function is considering
the following for the 2012 Filing Season:
       •   Mandating that all partners use Form 13614-C.
       •   Implementing a full-scale SPEC function shopping initiative.
       •   Requiring that all partners certify that volunteers have taken a SPEC function developed
           Ethics and Integrity Presentation.
       •   Broadcasting a webinar featuring key IRS and partner executives detailing ethics
           expectations.

The IRS has implemented an extensive quality review process, but it has
limitations and may not be providing reliable results
The SPEC function has a substantial quality review process that includes:
       1. A 100 percent Quality Review at the volunteer sites of every tax return before it is
          filed. These reviews are generally conducted by a designated quality reviewer using a
          quality review tool designed to ensure the accuracy of the taxpayer’s return.

10
     Web conference transmitted over the Internet.
                                                                                                Page 10
                             Accuracy of Tax Returns, the Quality Assurance
                             Processes, and Security of Taxpayer Information
                               Remain Problems for the Volunteer Program



     2. Quality Statistical Sample (QSS) Reviews. Starting with the 2009 Filing Season, the
        IRS began relying on a specially trained cadre of 18 tax specialists to visit a statistically
        valid sample of Volunteer Program sites to review a random sample of tax returns for
        accuracy. During a QSS Review, cadre members randomly select for review three tax
        returns that have not yet been signed by the taxpayers. Tax return accuracy is determined
        by verifying the taxpayer’s identity and comparing the completed tax return to the
        completed Form 13614-C and the taxpayer’s supporting documents. It is from this
        review that the SPEC function determines and reports its accuracy rate.
     3. Post Reviews of selected QSS Reviews. Using tax returns from QSS Reviews, analysts
        ensure the case files provide adequate documentation to make an accuracy assessment
        and validate that the tax returns were prepared correctly. Reviews are selected by the
        Statistics of Income function using a random sample of all QSS Reviews planned for the
        2011 Filing Season.
     4. Criteria Reviews. In Fiscal Year 2008, the SPEC function began conducting Criteria
        Reviews. These reviews are unannounced and include post-preparation reviews of a
        minimum of three returns and measuring the sites’ adherence to Quality Site
        Requirements. A minimum of 5 percent of the Volunteer Program sites are to be selected
        using the following criteria:
             •   New sites opened.
             •   Existing sites with a new site coordinator.
             •   VITA and TCE Grant sites.
             •   Sites with a prior year finding of noncompliance to one or more quality site
                 requirements or inaccurate return preparation based on QSS Reviews, Treasury
                 Inspector General for Tax Administration reviews, or Criteria Reviews.
             •   Manager discretion.
     5. Field Site Visits. SPEC function Territory Offices11 select a minimum of 15 percent of
        the Volunteer Program sites to conduct field site visits. During these visits, the Territory
        Office will cover a series of key issues that include (but are not limited to):
             •   Fraud awareness and prevention.
             •   Adherence to quality site requirements.


11
  The SPEC function is divided geographically into 4 Area Offices and 37 Territory Offices. An Area Office is a
geographic organization level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues. A Territory Office handles implementation of outreach and
education efforts. Directors oversee the Area Offices and managers oversee the Territory Offices.
                                                                                                        Page 11
                          Accuracy of Tax Returns, the Quality Assurance
                          Processes, and Security of Taxpayer Information
                            Remain Problems for the Volunteer Program



           •   Site and data security.
           •   Financial education and asset-building opportunities.
           •   Key tax law issues.
During Calendar Year 2010, the SPEC function conducted more than 3,700 site visits and during
Calendar Year 2011, as of May 7, 2011, more than 3,400 site visits.
Volunteers are not following the quality review process guidelines
Since Fiscal Year 2004, the SPEC function and its volunteer organization/partners have worked
to educate and train volunteers about the benefits of following quality assurance processes during
the preparation of every tax return. For every tax return prepared, volunteers are required to
ensure that there is an interview process to confirm a complete and accurate understanding of the
taxpayer’s information, and that each tax return is subjected to a 100 percent Quality Review.

        A quality review process at each site must be used to confirm that the tax law was
        correctly applied and that the tax return is free from error and has been prepared correctly
        based on all available information. A quality review process at each site must contain the
        following critical components for an effective and thorough quality review of the tax return:
        1. The taxpayer should participate in the quality review process.
        2. The quality reviewer is required to use a standardized Quality Review Sheet.
        3. The quality reviewer is required to use the available supporting documents to confirm
           identity, income, expenses, and credits on the return.
        4. If applicable, the quality reviewer may have to refer to the VITA/TCE Volunteer
           Resource Guide (Publication 4012) and/or Your Federal Income Tax (Publication 17).


For each of the 22 tax returns prepared incorrectly, elements of the requirements were not
followed. For example:
   •   5 (23 percent) incorrect tax returns were not quality reviewed.
   •   8 (36 percent) quality reviewers did not refer to the Intake Sheet.
   •   9 (41 percent) quality reviewers did not refer to the source documents.
   •   11 (50 percent) auditors were not involved in the quality review process.
Section C of Form 13614-C is to be completed by certified quality reviewers. Of the 33 sites
where Forms 13614-C were prepared, only 8 (24 percent) of the forms showed that Section C
was completed. Figure 6 provides an excerpt of Form 13614-C.




                                                                                                   Page 12
                          Accuracy of Tax Returns, the Quality Assurance
                          Processes, and Security of Taxpayer Information
                            Remain Problems for the Volunteer Program



                           Figure 6: Excerpt From Form 13614-C




   Source: Form 13614-C. SIDN = Site Identification Number.

QSS Reviews are not anonymous and may influence tax preparation sites under review
Unlike when auditors pose as taxpayers and visit volunteer tax preparation sites to have a tax
return prepared, during the QSS Review, volunteers are aware that IRS staff are onsite to review
the tax returns they are preparing. Knowing the reviewer is onsite introduces bias and could lead
volunteers to be more quality conscious and more apt to adhere to quality processes than they
would have been otherwise. Individuals improve or modify an aspect of their behavior simply in
response to the fact that they are being studied. Consequently, the QSS Reviewer may not be
obtaining reliable results or a reliable perspective of the tax return preparation operations.
The IRS has used shopping as part of the quality review process. During the 2008 Filing Season,
volunteers prepared 85 tax returns for SPEC function shoppers with a 75 percent accuracy rate.
During the 2009 Filing Season, the IRS performed 65 shopping reviews that showed
44 (68 percent) tax returns were prepared accurately. The sites selected were not part of a
statistically valid sample and, therefore, were not representative of the accuracy rate for the
entire Volunteer Program. However, observations from the 2009 Filing Season shopping visits
showed that:
   •   25 percent of the sites did not perform the required quality review of the tax returns.
   •   68 percent of the sites did not effectively use the required intake and interview sheet
       during tax return preparation.
The IRS may again conduct shopping visits, but stated that limited resources would preclude it
from using a statically valid sample; therefore, the results will not be used to report the accuracy
of the Volunteer Program tax return preparation. The SPEC function continues to believe that

                                                                                             Page 13
                           Accuracy of Tax Returns, the Quality Assurance
                           Processes, and Security of Taxpayer Information
                             Remain Problems for the Volunteer Program



the QSS Reviews, which use a statistically valid sample of Volunteer Program sites, provide a
valid accuracy rate for randomly selected tax returns prepared at Volunteer Program sites and are
a better use of resources. During the 2011 Filing Season, QSS Reviewers visited 245 Program
sites and reviewed 724 tax returns resulting in an 87 percent accuracy rate. The SPEC function
estimates that the cost for the QSS Reviews is approximately $817,000,12 which includes labor
and travel.
In order for the results of a shopping initiative to be statistically valid and representative of all
tax returns prepared by the Volunteer Program, the IRS would have to visit a statistically valid
sample of Volunteer program sites and have one tax return prepared. To gain a larger sample
comparable to the current QSS Reviews, the SPEC function could select a cluster sample of sites
geographically and have two additional tax returns prepared at sites in the same geographical
area as the first site selected. This methodology would provide the IRS with a better perspective
and representation of the accuracy of Volunteer Program tax return preparation.
Replacing the QSS Reviews with a shopping initiative would improve the reliability of the
accuracy rate and potentially provide statistically valid results. However, a shopping initiative is
not without challenges, including protecting the anonymity of the shoppers year after year.
Nevertheless, it is the optimum way to test both the accuracy of the tax returns and the taxpayer
experience while visiting Volunteer Program sites.
The Volunteer Program is an important tax return preparation program and is dependent
on volunteers
Partner organizations and their volunteers play a significant role in the IRS’s tax return
preparation program. The strengths of the Volunteer Program lie with the partner organizations
and their volunteers. However, as the IRS demonstrated this year, when improprieties are
identified with volunteers, it takes immediate action.
There are more than 12,000 volunteer tax preparation sites. Testing has shown that when an IRS
employee is onsite, the volunteers are more apt to follow all guidelines and procedures, thus
preparing accurate tax returns. However, it would require extensive resources to have an IRS
employee continually at a Volunteer Program site.
The IRS requires that volunteers be tested and certified. It provides extensive tax aids and tax
preparation software volunteers may use to prepare tax returns. Nevertheless, tax law is
complex. Although the Volunteer Program prepares less complex tax returns, family situations
are often complicated and unique. To correctly apply the complex tax law concerning filing
status, exemption, and related credits, volunteers must ensure they have a complete
understanding of the taxpayers’ family situations. The requirements a taxpayer must meet to
qualify for Head of Household filing status may not be the same as those the taxpayer must meet


12
     As of May 17, 2011.
                                                                                             Page 14
                            Accuracy of Tax Returns, the Quality Assurance
                            Processes, and Security of Taxpayer Information
                              Remain Problems for the Volunteer Program



to claim a qualifying person as a dependent or to qualify for the Earned Income Tax Credit
and/or Child Tax Credit.
The IRS has taken numerous actions and committed significant resources to increase the
accuracy of tax returns prepared by volunteers. The IRS estimates the cost of the Volunteer
Program quality review staff and QSS Reviews for the period October 1, 2010, to May 17, 2011,
at about $1.4 million. Adding a shopping initiative would increase the costs of the Volunteer
Program but is essential to ensure the integrity of the Program.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Evaluate the QSS Review process to ensure it is the best use of
resources and provides the best representation of the accuracy rate of the Volunteer Program.
        Management’s Response: IRS management agreed with this recommendation. The
        SPEC function worked closely with the Statistics of Income function to create an
        efficient process to produce a statistically valid estimate of the quality of services
        provided by the Volunteer Program sites. To date, the QSS Review is the only measure
        that meets this requirement.
Recommendation 2: Include anonymous shopping visits as part of the quality review
process.
        Management’s Response: IRS management agreed with this recommendation. The
        SPEC function has plans to conduct anonymous shopping visits during the 2012 Filing
        Season.

Current Procedures Need to Be Strengthened to Ensure the Integrity
of the Volunteers and the Security of Taxpayer Information
We reported in September 2008 that current procedures need to be strengthened to ensure the
integrity of the volunteers.13 The IRS has application processes and procedures in place to ensure
that volunteer applicants meet certain criteria. However, these steps and processes do not ensure
the integrity of volunteers, even though the volunteers have access to taxpayers’ Personally
Identifiable Information such as Social Security Numbers, driver licenses, and home addresses.
Because volunteers have access to taxpayer information, there is a potential risk of refund fraud
and/or identity theft.



13
  Accuracy of Volunteer Tax Returns Continues to Improve, but Better Controls Are Needed to Ensure Consistent
Application of Procedures and Processes (Reference Number 2008-40-177, dated September 18, 2008).
                                                                                                      Page 15
                           Accuracy of Tax Returns, the Quality Assurance
                           Processes, and Security of Taxpayer Information
                             Remain Problems for the Volunteer Program



Improprieties, including four taxpayers’ tax returns that included a volunteer’s direct deposit
routing and account number, were identified at a Volunteer Program site. As a result, taxpayer
refunds would have been deposited to the volunteer’s bank account rather than the taxpayers’
accounts. *******************************3(d)*********************************
**********************************3(d)*************************************
********3(d)********************************.

Volunteer Program applicants are not subjected to background checks
                                             Unlike other organizations that require potential
  The IRS requires the following to          volunteers to be subject to a background check, the
  ensure the integrity of its volunteers:    IRS does not require its applicants to undergo a
                                             background check. In the 2008 Volunteer Program
  • Privacy and Confidentiality-A Public
    Trust (Publication 4299). This           report, we recommended that the IRS revise the
    Publication serves as the central        Volunteer Standards of Conduct (Form 13615) to
    document for providing guidance          include a question to determine whether the
    covering the privacy, confidentiality,   applicant has been convicted of a crime and have
    and security of all information          the applicant sign the Form under penalty of
    received at Volunteer Program sites.
                                             perjury. For the long term, the IRS should also
  • Sponsor Agreement (Form 13533).
                                             conduct a study to evaluate the applicability and
    Sponsors must sign Form 13533.
    New Forms are requested from             feasibility of standards used by other volunteer
    existing partners (or sponsors) when     organizations.
    significant changes are made to
    Publication 4299.                        The IRS decided that it would discuss this issue
  • Volunteer Agreement Standards of         with its partners because the volunteers work for
    Conduct – VITA/TCE Programs              them and not directly for the IRS. During Fiscal
    (Form 13615). Volunteers must            Year 2009 QSS Reviews, reviewers asked partners
    annually sign Form 13615 before          if they had a concern with the IRS adding the
    their volunteer service begins. It is    following question to Form 13615: In the last
    solicited during or subsequent to
    training. Form 13615 serves two          7 years have you been arrested, or charged with, or
    purposes: 1) obtains the volunteer’s     convicted of a felony? Of the 216 respondents,
    agreement to the standards of            81 percent did not have a concern with adding this
    conduct and 2) provides the IRS          question. However, the partners sought definitive
    and/or partner a place to record the     guidance from the IRS as to what actions to take if
    level of training received.
                                             a volunteer responded positively to this question.
  • Application Package and Guidelines
                                             The IRS is currently working with IRS Counsel and
    for Managing a TCE Program
    (Publication 1101). This package         its partners before making a final decision about
    contains current TCE Program             adding this question to Form 13615.
    guidelines.
                                           In addition, the SPEC function has determined that
                                           most national partners support background checks.
In December 2009, IRS Counsel determined that it is within SPEC function’s discretion to
review the background of its volunteers. However, IRS Counsel also stated that there are
                                                                                         Page 16
                              Accuracy of Tax Returns, the Quality Assurance
                              Processes, and Security of Taxpayer Information
                                Remain Problems for the Volunteer Program



currently no Federal laws that would prohibit a convicted felon from either preparing returns or
being a volunteer at a Federal agency. Regardless, SPEC function officials stated that
background checks for the more than 80,000 volunteers would be too costly for either the IRS or
its Volunteer Program partners.

Current procedures are not always followed
The Form 13615 is often referred to as the standards of conduct and is solicited annually during
or subsequent to training. It serves two purposes—it obtains the volunteer’s agreement to the
standards of conduct for the Volunteer Program and provides the IRS and/or partners a place to
record the level of training received and the corresponding test scores used to determine whether
a volunteer is certified to provide return preparation and/or tax law assistance. The Form 13615
is required for all volunteers before working at a site.
An analysis of 166 Forms 13615 from the 30 volunteer sites visited showed most Forms were
signed and dated by the volunteer, but not certified by the IRS or partner. Of 166 Forms 13615:
     • ****************************3(d)***********************************************************
         ********************************************************************
         *********************************************************************
         *******************************************************************
     •   66 (40 percent) were certified by the IRS or a Volunteer Program partner.
     •   77 (46 percent) were not certified.
In addition, not all Forms 13615 were signed by the volunteers. Figure 7 provides the results of
an analysis of Forms 13615.
                              Figure 7: Analysis of 166 Forms 13615

                                                                         Percentage of
                           Issue                                         Forms 13615
                           Signed by the Volunteer                            90%
                           Dated by the Volunteer                             87%
                           Volunteer Dated After Site Visit                    2%
                         Source: Our analysis of Forms 13615.




14
  A volunteer who provides coordination, organization, and supervision for all aspects of volunteer tax program site
locations, from the establishment of site(s) in the community to overseeing the site(s) operation during the filing
season.
                                                                                                          Page 17
                          Accuracy of Tax Returns, the Quality Assurance
                          Processes, and Security of Taxpayer Information
                            Remain Problems for the Volunteer Program



Ensuring the Forms 13615 are timely reviewed and certified will become more important if the
IRS moves forward with revising the Form 13615 to include a question asking the applicant if he
or she has been arrested, or charged with, or convicted of a felony.
Controls over the completion of Forms 13615 need improvement
The IRS provides significant guidance on which volunteers require certification to ensure tax
returns are completed accurately.
       Volunteers that answer tax law questions, instruct tax law, prepare or correct tax returns, or
       quality review returns must pass the IRS certification test annually. Volunteers that instruct
       and/or conduct quality site reviews must, at a minimum, complete the Intermediate certification,
       unless the site prepares more advanced returns. An important aspect of providing quality service
       to the taxpayer is providing an accurate return.

Volunteers assisting in roles that do not require tax law knowledge or provide tax law assistance
do not require certification. These roles include but are not limited to:
       •   Site coordinator.
       •   Greeter.
       •   Recruiter.
       •   Equipment coordinator.
       •   Computer specialist.
       •   Interpreter.
However, there is guidance requiring all volunteers adhere to the same standards of conduct as
those who prepare tax returns. These guidelines are not always followed and there is no
effective process to ensure volunteers adhere to the guidelines. All volunteers are required to
sign Form 13615 agreeing to the standards of conduct. Of the 166 Forms 13615 reviewed,
17 (10 percent) volunteers did not sign Form 13615 and 21 (13 percent) volunteers did not date
Form 13615. These volunteers may have access to taxpayer information.

Unauthorized persons were allowed access to taxpayer information
*******************3(d)******************************************************
***********************************3(d)*******************************15. This
happened because the Site Coordinator did not follow SPEC function policies and procedures.
SPEC function officials were immediately contacted and a Volunteer Quality Alert was issued
emphasizing the policy of securing taxpayer information at all sites. The individual was


15
  ***********************************3(d)**************************************************
*****************************************.
                                                                                              Page 18
                              Accuracy of Tax Returns, the Quality Assurance
                              Processes, and Security of Taxpayer Information
                                Remain Problems for the Volunteer Program



removed from the site. They also counseled the Site Coordinator from the site to ensure in the
future that:
     •   The Site Coordinator locks the site’s door when the site is not being used.
     •   Equipment is locked and taxpayer information is stored in a secure storage area at the end
         of the day, with only the Site Coordinator having the key.
SPEC function officials stated each site is expected to implement a process to ensure information
is adequately protected at all times. The process should include, but is not limited to, the
following:
     •   Ensuring that the information provided during the course of tax return preparation is
         under the care of volunteers at all times.
     •   Using locked storage. Keeping devices (e.g., diskettes, flash drives, pen drives, key
         drives, thumb drives) containing taxpayer information secure.
     •   Securing the equipment used for electronic tax return preparation and filing.
     •   Using passwords to prevent unauthorized access to the computer and software.
     •   Using limited or controlled access locations for storing equipment.

Controls over taxpayer referrals need improvement
During the 2011 Filing Season, the IRS improved its process to help ensure taxpayers report
willful acts of fraud occurring at Volunteer Program sites. The IRS established an email address
in the 2010 Filing Season and, in the 2011Filing Season, a toll-free telephone number for
taxpayers to use to report concerns with the integrity of a volunteer.16 When taxpayers choose to
call, they do not speak to an IRS employee but are asked to leave a message.
During the 2011 Filing Season, the IRS received 65 emails and 2,009 telephone calls, which
included 1,333 calls that were received and the callers hung up, either without leaving a message
or without leaving their contact information. The SPEC function originally intended this process
be used by taxpayers to report fraud; however, the calls to date have been tax law related, refund
related, or complaints about volunteer behavior or poor customer service. The script on the
toll-free telephone number states:
         You have reached the voice mailbox for the IRS VITA/TCE Office, where you can leave feedback
         about your experience visiting a VITA or TCE location. If you are calling for any other reason,
         please hang up and call 1-800-829-1040 for assistance. Employees at this number are not
         trained to answer tax account related questions. If you are calling about your experience visiting
         a VITA or TCE location, feedback is important to us. Please leave your name, telephone number,


16
   Volunteers, taxpayers, or anyone else visiting a Volunteer Program site can use the email address and toll-free
telephone number to report inappropriate activity.
                                                                                                            Page 19
                           Accuracy of Tax Returns, the Quality Assurance
                           Processes, and Security of Taxpayer Information
                             Remain Problems for the Volunteer Program


        or email address and a summary of your concerns. We will respond within 7 business days. You
        may also contact us at wi.voltax@irs.gov. At the tone, please record your message.

The information on the bottom of page 1 of Form 13614-C provides the taxpayer with the
following information:
        •   Volunteers assisting with preparing your return are trained to provide quality service and
            uphold the highest ethical standards.
        •   To report any concerns to IRS on site operating issues please call Toll free
            1-877-330-1205 or email us at WI.Voltax@irs.gov.

In addition, the IRS has two publications (posters) to alert taxpayers on how to report problems.
    •   VITA/TCE Free Tax Programs (Publication 4836). It is an informational document
        advising taxpayers of how to report problems encountered at a Volunteer Program site.
        It is a downloadable document that can be printed onsite and posted. It includes an email
        address and toll-free telephone number for reporting problems.
    •   Help Us Prepare an Accurate Return for You! (Publication 4807). It is a poster size
        image of Form 13614-C, with instructions to aid taxpayers in filling out the
        Intake/Interview Sheet and Quality Review Sheet and includes an email address and
        toll-free telephone number.
For most taxpayer concerns, the IRS contacted or attempted to contact the taxpayer to address
their issue(s). For some, the taxpayer did not provide the additional information requested to
resolve the issue. In addition, the IRS does not require that all callers be provided responses. It
only requires that SPEC function employees respond when the callers leave contact information
and when the issue cannot be resolved using other available IRS resources. For example, the
SPEC function made the decision to not respond to taxpayers who call asking when they will
receive their tax refunds, because the callers could use the toll-free telephone number
1-800-829-1954 or “Where’s My Refund?” on IRS.gov to obtain that information.
Currently, the SPEC function does not track the calls by assigning control numbers or track the
calls so that it can effectively identify trends or easily associate calls with responses.
Improvements are needed to control and track the type of incoming contacts and resolutions.
Without knowing the volume or type of contacts, the IRS will not know what corrective actions,
education, or revisions to guidelines are required to address taxpayer concerns. After discussing
this issue with the IRS, it categorized and counted the number of contacts and clarified most
resolutions. Controlling and tracking incoming contacts from initiation to completion help to
ensure that all transactions are complete and accurate.
The IRS is still deciding on the intent of the toll-free telephone number and email
In September 2009, the IRS ended a partnership with an organization that had received national
attention about allegations of questionable activity. Although the activities were not related to
the Volunteer Program, the IRS stated that it is “absolutely critical that taxpayers have trust in
                                                                                                   Page 20
                         Accuracy of Tax Returns, the Quality Assurance
                         Processes, and Security of Taxpayer Information
                           Remain Problems for the Volunteer Program



our Volunteer Income Tax Assistance program partners.” The IRS Deputy Commissioner asked
the SPEC function to improve processes that are intended to provide reasonable assurance that
unethical acts do not occur at Volunteer Program sites.
The IRS developed the email address and toll-free telephone number that taxpayers can use to
voice concerns about their experience at the Volunteer Program site. The original intent was to
provide taxpayers and volunteers a method to report their concerns regarding the integrity of a
volunteer and/or a site. However, based on the calls it received during the 2011 Filing Season,
the IRS sees merit in continuing the use of this line to also gauge the customer service and/or
taxpayer satisfaction with the Volunteer Program.
Nevertheless, adding additional information to the Form 13614-C and telephone script advising
taxpayers where to obtain refund and account-related information could assist in limiting the
number of telephone calls and emails to Volunteer Program issues. The Form 13614-C should
also advise taxpayers that when calling the toll-free telephone number, they will be leaving a
message instead of speaking with an IRS official. Taxpayers reporting fraud may be reluctant to
leave contact information and should be assured that their identity will be kept confidential.
The IRS has a fraud process in place that instructs the taxpayer on the process to follow to report
an individual or company that is suspected of not complying with the tax laws. The IRS should
review this process to determine best practices that can be used for taxpayers to report fraud and
integrity issues with the Volunteer Program.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 3: Improve controls over Forms 13615 to ensure that all Forms are signed
and dated by volunteers before they begin working at the Volunteer Program sites and that the
Forms are certified and dated by the IRS or partner.
       Management’s Response: IRS management agreed with this recommendation. The
       SPEC function will strengthen its guidance and monitoring practices to ensure that all
       Forms 13615 are signed and dated by volunteers before they begin working at the
       Volunteer Program sites and that the Forms are certified and dated by the IRS or partner.
Recommendation 4: Develop a process to ensure all volunteers, not just those preparing tax
returns, are following the guidance focusing on the integrity of the Volunteer Program and the
security of taxpayer information.
       Management’s Response: IRS management agreed with this recommendation. The
       Quality Site Requirements directs all volunteers, not just those preparing tax returns, to
       sign Form 13615. The IRS is strengthening this process for the 2012 Filing Season by


                                                                                           Page 21
                          Accuracy of Tax Returns, the Quality Assurance
                          Processes, and Security of Taxpayer Information
                            Remain Problems for the Volunteer Program



       including a mandatory training course and certification test that is required by all
       volunteers prior to working at a Volunteer Program site.
Recommendation 5: Revise Form 13614-C and the 1-877-330-1205 scripts to: 1) advise
taxpayers who are calling to inquire about their tax refunds how to obtain refund information
using either the toll-free telephone line or IRS.gov, and 2) inform callers that their information is
confidential and although not required, leaving identifying information would allow the IRS to
contact the taxpayer and/or follow up with him or her if more information is necessary.
       Management’s Response: IRS management agreed with this recommendation.
       Since this was the first year for the toll-free telephone line, the IRS identified several
       opportunities for improvement. The IRS revised the script early in the 2011 Filing
       Season to advise taxpayers of the process to inquire about their refund status. For Fiscal
       Year 2012, the IRS has already revised Form 13614-C to include “Where’s My Refund?”
       information. The IRS plans to revise the toll-free telephone line script for Fiscal
       Year 2012 to inform callers that their information is confidential.
Recommendation 6: Review the IRS fraud hotline procedures and guidelines to determine
best practices that can be used to improve the Volunteer Program referral process.
       Management’s Response: IRS management agreed with this recommendation. The
       SPEC function will collaborate with Criminal Investigation to determine best practices
       that can be used to improve their internal and external program referral process.
Recommendation 7: Ensure contacts received on the 1-877-330-1205 or WI.Voltax@irs.gov
are assigned control numbers so they can be effectively controlled and tracked. This will help
ensure the feedback provided by the taxpayers is used to improve the Volunteer Program.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS has designed a numerical control number for the 2012 Filing Season to better track
       and control contacts through its internal and external referral processes.




                                                                                              Page 22
                         Accuracy of Tax Returns, the Quality Assurance
                         Processes, and Security of Taxpayer Information
                           Remain Problems for the Volunteer Program



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether taxpayers visiting IRS Volunteer Program sites
receive quality service, including accurate tax returns. IRS data included in various figures were
provided for perspective only and were not validated. To accomplish the objective, we:
I.     Determined if the Volunteer Program sites were accurately preparing individual income
       tax returns based on facts provided by the taxpayers. From a population of 12,326 sites,
       we selected a judgmental sample of 36 VITA/Co-Located VITA and TCE-AARP sites
       nationwide and attempted to have a tax return prepared. Three sites were selected in
       12 States.
       Site selection was based on audit resources, proximity of sites to major cities, and
       geographical location of the auditors. In addition, to expand testing to include sites never
       tested, we also eliminated most cities and sites selected in prior audits. We could not
       select a statistical sample due to the volume of sites and geographical location of the sites
       that would need to be selected.
II.    Determined the characteristics of tax returns prepared at the Volunteer Program Sites.
       We assessed the reliability of the data by comparing the data to IRS Filing Season data.
III.   Followed up on the IRS’s response to the 2010 Filing Season report’s recommendation to
       ensure referrals reporting improper activities at Volunteer Program sites are properly
       documented, investigated, and resolved.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the SPEC function’s policies, procedures,
and practices for preparing tax returns. We evaluated controls by interviewing management and
reviewing policies and procedures. We conducted tests at Volunteer Program sites.




                                                                                            Page 23
                       Accuracy of Tax Returns, the Quality Assurance
                       Processes, and Security of Taxpayer Information
                         Remain Problems for the Volunteer Program



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Lena Dietles, Audit Manager
Pamela DeSimone, Senior Auditor
Jerry Douglas, Senior Auditor
Tracy Harper, Senior Auditor
Doug Barneck, Auditor
Ed Carr, Auditor
Kathy Coote, Auditor
Nelva Usher, Auditor
Lance Welling, Auditor




                                                                                    Page 24
                        Accuracy of Tax Returns, the Quality Assurance
                        Processes, and Security of Taxpayer Information
                          Remain Problems for the Volunteer Program



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner of Operations, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Senior Operations Advisor, Wage and Investment Division SE:W:S
Director, Stakeholder Partnerships, Education and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PEI
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 25
                Accuracy of Tax Returns, the Quality Assurance
                Processes, and Security of Taxpayer Information
                  Remain Problems for the Volunteer Program



                                                          Appendix IV

              Cities and States Visited
           to Have Tax Returns Prepared

Fresno/Merced                       California
Orlando/Valrico/Waverly             Florida
Macon                               Georgia
Chester/Collinsville/Marion          Illinois
Detroit/Grand Rapids/Kalamazoo      Michigan
Gulfport/Long Beach/Ocean Springs   Mississippi
Albany/Rome/Voorheesville           New York
Clinton/Fayetteville/Maxton          North Carolina
Chattanooga                         Tennessee
Austin                               Texas
Ogden/Salt Lake City                Utah
Charleston/Nitro/Parkersburg        West Virginia




                                                                  Page 26
                  Accuracy of Tax Returns, the Quality Assurance
                  Processes, and Security of Taxpayer Information
                    Remain Problems for the Volunteer Program



                                                                                   Appendix V

                Accuracy Rate by Tax Topic

                                                 Number of
                                                Tax Returns              Percentage
     Tax Topic                                 Using Tax Topic            Correct

     Additional Child Tax Credit                       24                    79%

     Child and Dependent Care
                                                       12                    67%
     Credit
     Child Tax Credit                                  24                    79%
     Earned Income Tax Credit                          24                    96%

     Educator Expense                                  12                    25%
     Exemptions                                        36                    97%
     Estimated Tax Penalty                             12                    83%

     Filing Status                                     36                    97%
     Health Savings Account                            12                    50%
     Income                                            36                    94%

     Interest                                          24                    92%
     Making Work Pay Credit                            36                    97%
     Retirement Savings Contribution
                                                       12                    83%
     Credit
     Schedule C Expenses                               12                    58%
     Self-Employment Tax                               12                    58%

     Standard Deduction                                36                    97%
    Source: Analysis of tax returns prepared for auditors by volunteers during
    the 2011 Filing Season.
.




                                                                                        Page 27
        Accuracy of Tax Returns, the Quality Assurance
        Processes, and Security of Taxpayer Information
          Remain Problems for the Volunteer Program



                                                  Appendix VI

Intake/Interview and Quality Review Sheet




                                                          Page 28
Accuracy of Tax Returns, the Quality Assurance
Processes, and Security of Taxpayer Information
  Remain Problems for the Volunteer Program




                                                  Page 29
                            Accuracy of Tax Returns, the Quality Assurance
                            Processes, and Security of Taxpayer Information
                              Remain Problems for the Volunteer Program




Source: IRS Forms and Publications web site.


                                                                              Page 30
                      Accuracy of Tax Returns, the Quality Assurance
                      Processes, and Security of Taxpayer Information
                        Remain Problems for the Volunteer Program



                                                               Appendix VII

             Volunteer Agreement
   Standards of Conduct – VITA/TCE Programs




Source: IRS Forms and Publications web site.


                                                                        Page 31
                             Accuracy of Tax Returns, the Quality Assurance
                             Processes, and Security of Taxpayer Information
                               Remain Problems for the Volunteer Program



                                                                                       Appendix VIII

                General Characteristics of Tax Returns
                 Prepared by the Volunteer Program 1
                     During Calendar Year 2011

                                                                       Tax Return      Percentage
                Type of Tax Return                                      Volume          of Total

          U.S. Individual Income Tax Return (Form 1040)                 2,904,624       94.77%
          U.S. Individual Income Tax Return (Form 1040A)                   89,549        2.92%
          Income Tax Return for Single and Joint Filers With No
                                                                           58,141            1.9%
          Dependents (Form 1040EZ)
          U.S. Income Tax Return for Certain Nonresident Aliens
                                                                            7,794        0.25%
          With No Dependents (Form 1040NR-EZ)
          U.S. Individual Income Tax Return (PC) (Form 1040PC)              3,964        0.13%
          U.S. Nonresident Alien Income Tax Return (Form 1040NR)              394        0.01%
          U.S. Self-Employment Tax Return – Virgin Islands, Guam,
                                                                              345        0.01%
          American Samoa (Form 1040-SS)
          U.S. Self-Employment Tax Return – Puerto Rico
                                                                               16       <0.01%
          (Form 1040-PR)



         Refund Due/                  Dollar             Tax Return         Percentage of Tax
         Balance Due                  Totals              Volume             Return Volume

         Refund Due                  $3,924,877,622        2,340,925                76.38%
         Balance Due                  $445,195,385           459,933                15.01%
         Breakeven                               $0          263,969                8.61%




1
    The IRS Volunteer Program includes the VITA and TCE Programs.
                                                                                                    Page 32
                             Accuracy of Tax Returns, the Quality Assurance
                             Processes, and Security of Taxpayer Information
                               Remain Problems for the Volunteer Program



                                                                        Tax Return       Percentage of
        Filing Status/Dependent Claims                                   Volume              Total

         Single                                                            1,795,226        58.58%
         Married Filing Jointly                                              841,622        27.46%
         Head of Household                                                   367,781           12%
         Married Filing Separately and Spouse Is Required to
                                                                              58,471          1.91%
         File
         Widow(er) With Dependent Child                                         1,613         0.05%
         Married Filing Separately and Spouse Is Not Required
                                                                                  114       <0.01%
         to File
         Tax Return Prepared With One or More Dependent
                                                                             669,840        21.86%
         Exemptions, Including Parents
         Tax Return Prepared With No Dependent Exemptions                  2,394,987        78.14%



                                                                  Tax Return                Dollar
         Credits Claimed                                           Volume                   Totals

         Earned Income Tax*                                           683,926        $1,001,382,805
         Child Tax*                                                   245,132           $246,336,806
         Additional Child Tax*                                        306,749           $352,706,061
         Retirement Savings Contributions*                            194,716            $32,670,836
         Education                                                    143,622           $104,650,813
         Child and Dependent Care*                                     51,871            $25,348,241
         Other (Adoption, Gas, and Health Coverage Tax)                   373               $301,565
        * = This credit was included in our test scenarios.

         Income                         Tax Return Volume                   Dollar Amounts

         Average Income2                      3,047,316                             $24,076
                        3
         Other Income                           148,905                       $469,401,232
       Source: Our analysis of tax returns prepared at the Volunteer Program sites during
       Calendar Year 2011 as of May 19, 2011.


2
 Average Income was determined using computer software to calculate the average total income of all taxpayers.
3
 Other Income is a line item on the Form 1040 series tax returns that is not reported on any tax schedules or
anywhere else on the tax returns.
                                                                                                        Page 33
                        Accuracy of Tax Returns, the Quality Assurance
                        Processes, and Security of Taxpayer Information
                          Remain Problems for the Volunteer Program



                                                                            Appendix IX

  Treasury Inspector General for Tax Administration
      Audit Reports on the Volunteer Tax Return
                Preparation Program

Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly at Internal Revenue
Service Volunteer Income Tax Assistance Sites (Reference Number 2004-40-154, dated
August 31, 2004).
Significant Improvements Have Been Made in the Oversight of the Volunteer Income Tax
Assistance Program, but Continued Effort Is Needed to Ensure the Accuracy of Services
Provided (Reference Number 2006-40-004, dated November 4, 2005).
Oversight and Accuracy of Tax Returns Continue to Be Problems for the Volunteer Income Tax
Assistance Program (Reference Number 2006-40-125, dated August 31, 2006).
Accuracy of Volunteer Tax Returns Is Improving, but Procedures Are Often Not Followed
(Reference Number 2007-40-137, dated August 29, 2007).
Accuracy of Volunteer Tax Returns Continues to Improve, but Better Controls Are Needed to
Ensure Consistent Application of Procedures and Processes (Reference Number 2008-40-177,
dated September 18, 2008).
Ensuring the Quality Assurance Processes Are Consistently Followed Remains a Significant
Challenge for the Volunteer Program (Reference Number 2009-40-128, dated
September 15, 2009).
Improvements to the Volunteer Program Are Producing Positive Results, but Further
Improvements Are Needed to the Quality Assurance Process (Reference Number 2010-40-109,
dated September 3, 2010).




                                                                                        Page 34
        Accuracy of Tax Returns, the Quality Assurance
        Processes, and Security of Taxpayer Information
          Remain Problems for the Volunteer Program



                                                   Appendix X

Management’s Response to the Draft Report




                                                          Page 35
Accuracy of Tax Returns, the Quality Assurance
Processes, and Security of Taxpayer Information
  Remain Problems for the Volunteer Program




                                                  Page 36
Accuracy of Tax Returns, the Quality Assurance
Processes, and Security of Taxpayer Information
  Remain Problems for the Volunteer Program




                                                  Page 37
Accuracy of Tax Returns, the Quality Assurance
Processes, and Security of Taxpayer Information
  Remain Problems for the Volunteer Program




                                                  Page 38
Accuracy of Tax Returns, the Quality Assurance
Processes, and Security of Taxpayer Information
  Remain Problems for the Volunteer Program




                                                  Page 39
Accuracy of Tax Returns, the Quality Assurance
Processes, and Security of Taxpayer Information
  Remain Problems for the Volunteer Program




                                                  Page 40
